Jeffry A. Miller
Certified Specialist in Appellate Law
by the State Bar of California
Board of Legal Specialization
701 B Street, Suite 1900
San Diego, California 92101
Jeff.Miller@lewisbrisbois.com
Direct: 619.699.4971

dik
LEWIS
urs BRISBOIS
LEWIS BRISBOIS BISGAARD & SMITH LLP

January 24, 2020

File No. 37986.1125

(Via Overnight Mail & Electronic Filing)
Supreme Court of the
United States
1 First Street NE
Washington, DC 20543
Re:

U.S. Supreme Court No. 19-849
Kristanalea Dyroff, Individually and on Behalf of the Estate of Wesley
Greer, Petitioner v. The Ultimate Software Group, Inc., Respondent
On Petition for a Writ of Certiorari to the Ninth Circuit Court of Appeals
Re: Application for Extension of Time to File Brief
in Response to Petition for Writ of Certiorari

To the Clerk of the United States Supreme Court:
Respondent The Ultimate Software Group1 respectfully requests an extension of
time of forty-five days to file its brief in response to Petitioners’ Petition for a Writ of
Certiorari, which was filed in this Court on January 2, 2020 and docketed on January

Pursuant to Supreme Court Rule 29.6, Respondent The Ultimate Software
Group, Inc. does not have a parent corporation. As of September 10, 2018, Janus
Henderson Group PLC holds a ten percent interest in The Ultimate Software Group,
Inc.
1

ARIZONA • CALIFORNIA • COLORADO • CONNECTICUT • FLORIDA • GEORGIA • ILLINOIS • INDIANA • KANSAS • KENTUCKY
LOUISIANA

•

MARYLAND

•

MASSACHUSETTS

•

MISSOURI

•

NEVADA

•

NEW JERSEY

•

NEW MEXICO

•

NEW YORK

NORTH CAROLINA • OHIO • OREGON • PENNSYLVANIA • RHODE ISLAND • TEXAS • UTAH • WASHINGTON • WEST VIRGINIA
4832-4483-8577.1

January 24, 2020
Page 2

6, 2020. Respondent’s response is currently due on February 5, 2020. Respondent
requests a forty-five day extension to March 23, 2020.
On January 2, 2020, Petitioner Kristanalea Dyroff filed a Petition for a Writ of
Certiorari together with an appendix containing 64 pages. Petitioner received a fortyfive day extension from November 18, 2019, to January 2, 2020, from this Court to file
her Petition for Writ of Certiorari. Respondent seeks the same forty-five day extension
for its response. Eric Schnapper, counsel of record for Petitioner, indicated that he
consents to this extension request.
Additional time is needed to prepare the opposition brief in part because I
recently underwent major surgery on January 15, 2020. This health event has
adversely affected my ability to complete the response brief by the present deadline.
Additionally, prior to my surgery I was busy finalizing several appellate briefs. I
drafted a respondent’s brief in Wright v. Kaiser Permanent Medical Center (Cal. Court
of Appeal, First Appellate District No. A157091), which was filed on January 8, 2020,
and an appellant’s reply brief in McChesney v. The People of the State of California
(Cal. Court of Appeal, Second Appellate District No. B295879), which was filed on
January 13, 2020. I also helped prepare an Answer to a Petition for Review in
Ensemble Real Estate Service v. San Antonio Community Hospital (Cal. S. Ct. No.
S242250), which was filed on January 21, 2020, a respondent’s brief in Hernandez v.

LEWIS BRISBOIS BISGAARD & SMITH LLP
www.lewisbrisbois.com
4832-4483-8577.1

January 24, 2020
Page 3

Skybox Imaging, Inc. et al. (Cal. Court of Appeal, Sixth Appellate District No.
H046076), which was filed on January 22, 2016, and a respondent’s brief in Ko v.
Maxim Healthcare Services, Inc., et al. (Cal. Court of Appeal, Second Appellate District
No. B293672), which was filed on January 23, 2020.
Over the next month, I also have several other appellate deadlines. I have an
appellee’s answering brief in Strojnik v. Pasadena Robles Acquisition LLC dba Hilton
Pasadena (Ninth Cir. No. 19-56037) due on January 27, 2020. I also have oral
argument scheduled in Elliott v. Connect the Dots (Cal. Court of Appeal, Second
Appellate District No. B290888) on February 19, 2020. Finally, I have an answering
brief due in Utility Courier Service v. Hudson Ins. Co. (9th Cir. No. 19-56168) on
February 10, 2020.

LEWIS BRISBOIS BISGAARD & SMITH LLP
www.lewisbrisbois.com
4832-4483-8577.1

January 24, 2020
Page 4

A forty-five day extension will allow Respondent time to complete the response
brief, give the client time to review and provide comments and will allow Respondent
time to properly print the brief according to Supreme Court Rules.
Thank you.
Very truly yours,
/s/ Jeffry A. Miller
Jeffry A. Miller of
LEWIS BRISBOIS BISGAARD &
SMITH LLP
JAM:ls
cc:
Eric Schnapper
University of Washington School of Law
P.O. Box 353020
Seattle, WA 98195
schnapp@uw.edu
(Via Email and Overnight Mail)

LEWIS BRISBOIS BISGAARD & SMITH LLP
www.lewisbrisbois.com
4832-4483-8577.1

